<html>
<title> - TERRORIST FINANCING: KIDNAPPING, ANTIQUITIES TRAFFICKING, AND PRIVATE DONATIONS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                  TERRORIST FINANCING: KIDNAPPING, ANTIQUITIES 
                    TRAFFICKING, AND PRIVATE DONATIONS

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 17, 2015

                               __________

                           Serial No. 114-120

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 __________
                                 
                           U.S. GOVERNMENT PUBLISHING OFFICE
97-635PDF                      WASHINGTON : 2015                           
                                                    
                                 
________________________________________________________________________________________                                
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6d0a1d022d0e181e190508011d430e020043">[email&#160;protected]</a>  
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York<greek-l>
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 5/19/15 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           WILLIAM KEATING, Massachusetts
DARRELL E. ISSA, California          BRAD SHERMAN, California
PAUL COOK, California                BRIAN HIGGINS, New York
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
REID J. RIBBLE, Wisconsin            ROBIN L. KELLY, Illinois
LEE M. ZELDIN, New York
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. John Cassara (former Special Agent, U.S. Department of the 
  Treasury)......................................................     6
David Andrew Weinberg, Ph.D., senior fellow, Foundation for 
  Defense of Democracies.........................................    17
Ms. Diane Foley, founder, James W. Foley Legacy Foundation Inc...    54
Michael D. Danti, Ph.D., academic director of cultural heritage 
  initiatives, The American Schools of Oriental Research.........    60

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. John Cassara: Prepared statement.............................     8
David Andrew Weinberg, Ph.D.: Prepared statement.................    19
Ms. Diane Foley: Prepared statement..............................    57
Michael D. Danti, Ph.D.: Prepared statement......................    62

                                APPENDIX

Hearing notice...................................................    88
Hearing minutes..................................................    89
David Andrew Weinberg, Ph.D.: Material submitted for the record..    90
The Honorable Ted Poe, a Representative in Congress from the 
  State of Texas, and chairman, Subcommittee on Terrorism, 
  Nonproliferation, and Trade: Material submitted for the record.    95

 
                    TERRORIST FINANCING: KIDNAPPING, ANTIQUITIES 
                     TRAFFICKING, AND PRIVATE DONATIONS

                              ----------                              


                       TUESDAY, NOVEMBER 17, 2015

                     House of Representatives,    

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2200 Rayburn House Office Building, Hon. Ted Poe 
(chairman of the subcommittee) presiding.
    Mr. Poe. The subcommittee is called to order.
    Without objection, all members may have 5 days to submit 
statements, questions, extraneous materials for the record 
subject to the length limitation in the rules.
    The Chair recognizes itself for an opening statement and 
when the ranking member, Mr. Keating, gets here he will be, of 
course, allowed to make his opening statement. But we will 
proceed at this time.
    The terrorist attacks in Paris last Friday remind us the 
damage a terrorist organization can do with even a little 
money. ISIS, however, is the richest terrorist organization in 
history.
    Last year alone, ISIS made over $1 billion. That is more 
money than some countries make in a year. Much of that money 
was made from seizing state assets, selling oil on the black 
market and taxing people living in its so-called caliphate.
    Those sources of money are mostly internal and do not use 
the international financial system. But other sources of 
funding are more dependent on the outside world and may be 
easier to cut off.
    For example, ISIS made nearly $50 million last year from 
kidnapping for ransom. Some estimates put kidnapping for ransom 
as high as 20 percent of ISIS' revenue.
    ISIS is not the only terrorist group kidnapping hostages to 
make money. AQIM is said to rely almost exclusively on 
kidnapping for ransom for funds.
    This is the same terrorist group that attacked a gas plant 
in Algeria and killed one of my constituents, Victor Lovelady, 
after taking him hostage.
    From 2008 to 2014, terrorist groups made roughly $165 
million from ransom payments. To try and stop this wave of 
payments in the last 2 years the United Nations passed three 
Security Council resolutions condemning the payment of ransoms 
to terrorists.
    Our own country has a long history of countering this 
barbaric practice. From the very beginning, the United States 
has always refused to pay ransom to terrorists.
    The Barbary Pirates captured American merchant ships and 
demanded ransoms to release the crews in the early 1800s. Even 
then, President Thomas Jefferson refused to pay the bounty.
    Jefferson argued that doing so would only encourage more 
attacks. Throughout history, terrorists have learned to demand 
ransoms from those who will pay.
    Also, I want to recognize that this issue can be complex. 
We have the mother of James Foley here with us today. Mrs. 
Foley, I want to express my condolences to you for the loss of 
your son.
    I think it is important that we hear from family members of 
those who are kidnapped so I appreciate--the committee 
appreciates the fact that you were willing to testify.
    Terrorist groups have long depended on criminal activity 
for funding including trafficking of cultural antiquities. ISIS 
is currently in control of hundreds of sites throughout Syria 
and Iraq.
    These sites are the cultural heritage of humanity but ISIS 
sees them as a financial opportunity. Declassified ISIS 
documents show that the terrorists made hundreds of millions of 
dollars from selling these antiquities.
    According to some estimates, antiquity smuggling at one 
point was ISIS' second largest source of funding. ISIS is 
killing people with the money it makes from these artifacts 
while also destroying history.
    Believe it or not, there are some people who voluntarily 
give their money to these murderers. ISIS has maintained 
connections with wealthy donors for nearly a decade. Many of 
these donors are based in Gulf countries like Qatar, Kuwait and 
Saudi Arabia.
    Between 2013 and 2014, ISIS received as much as $40 million 
from these wealthy benefactors, and ISIS is not the only 
terrorist group benefitting from these deep pocket donors who 
give money to terrorist groups.
    Wealthy individuals from these countries fund terrorists 
all over the world including al-Qaeda and Al-Shabaab. They set 
up charities and funnel the money directly to the terrorists.
    The governments of these Gulf countries simply do not do 
enough to stop the steady stream of terrorist financing that 
seems to start from a handful of Middle Eastern countries.
    These private donors are just as guilty as the terrorists. 
Unless more is done, the governments of these countries are 
complicit in the crimes.
    These three sources of terrorist funding have given ISIS 
hundreds of millions of dollars in the last year. Cutting off 
even one of these sources could make a big difference. ISIS 
thrives off the appearance that it is winning.
    By cutting even a portion of ISIS' funds we can challenge 
its narrative of victory. That will mean not only less money 
for the terrorists but also possibly less recruits.
    More importantly, it would mean less victims of ISIS' 
barbaric terrorist attacks. We must use all the resources at 
our disposal to target every source of terrorist funding no 
matter where it comes from and that is the purpose of these 
hearings to listen to these experts on this issue.
    I will now turn to the gentleman from Massachusetts for his 
opening statement, Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    Thank you for conducting this hearing. Thank you to our 
witnesses for being here today. This hearing is on terrorist 
financing generally but in consideration of the recent events 
it is an opportunity and an appropriate one to pay particular 
attention to ISIL.
    Friday's attack in Paris and recent bombings in Beirut, the 
bombing, we can now say, of the Russian passenger Metrojet in 
Egypt indicate that ISIL may intend increasingly to attack 
targets outside of its basis of power in Iraq and Syria and it 
is worth taking a moment to express on behalf of myself and I 
think the committee, you know, our greatest sympathy for the 
victims and their families of those terrible tragedies.
    This worrisome development in the United States and our 
allies must endeavor at all fronts--demonstrates we must 
endeavor on all fronts to defeat ISIL.
    In order to defeat ISIL, we need to continue to assist our 
allies militarily to roll back the territorial gains made by 
ISIL and in addition and not unimportantly we must work to cut 
off ISIL's supply of money and manpower by more effectively 
countering terrorist recruitment, terrorist travel and 
terrorist financing.
    According to a 2015 report by the Financial Action Task 
Force, ISIL earns revenue from several sources including 
various illicit proceeds derived from the occupation of 
territory, kidnapping for ransom, donations by or through 
nonprofit organizations, support from foreign fighters, and 
fund-raising through the Internet.
    One of the significant ways ISIL finances its activities is 
through the illicit sale of antiquities. ISIL is directly 
involved in the lootings of archeological sites in Iraq and 
Syria, theft from regional museums and stockpiling of cultural 
objects for future sale on the international market.
    Further, ISIL earns money by charging others for licenses 
they call taxes to loot archeological sites and by taxing 
traffickers moving items through ISIL-controlled territory.
    To date, ISIL has reportedly earned tens of millions of 
dollars from the antiquities stolen in Syria alone. To counter 
this threat, we need to do more to prevent the theft and 
destruction of antiquities in countries like Iraq and Syria.
    We also need to do more here at home to ensure that the 
United States isn't importing stolen antiquities and financing 
terrorism as a result.
    I have introduced the bill H.R. 2285, the Prevent 
Trafficking in Cultural Properties Act, that would enhance 
coordination and training within the Department of Homeland 
Security to stop stolen antiquities from entering the United 
States and, even more importantly, to investigate and then 
prosecute the smugglers, traffickers and other criminals that 
participate in this illicit trade.
    H.R. 2285 was recently reported out of the Committee on 
Homeland Security and I urge my colleagues to support this 
bipartisan bill, which is aimed at stopping terrorist groups 
like ISIL from financing the murderous activities through the 
sale of stolen antiquities and other cultural property.
    I look forward to hearing from our witnesses today and 
learning more about different forms of terrorist financing 
including antiquities trafficking and how better to stop this 
illicit stream of income.
    Thank you, Mr. Chairman. I yield back.
    Mr. Poe. I thank the gentleman from Massachusetts.
    The Chair will now recognize members who wish to make 
opening statements for 1 minute each.
    Chair recognizes the gentleman from California, Mr. Cook, 
for 1 minute in his opening statement.
    Mr. Cook. Thank you, Mr. Chairman.
    This is certainly a very timely hearing. I want to thank 
Ms. Foley for being here. This past week many of us gave 
speeches, talked about Veterans Day and the sacrifice that so 
many Americans have given in wars.
    And no matter how you slice it, this is a war that we are 
waging with this group--ISIL, ISIS, Daesh, whatever you want to 
call them.
    Their tactics--you know, there are no limits to them and I 
personally think that many people in the Middle East and 
throughout the world have gotten a pass on this.
    We know that there has been support of that through some 
nations in the Middle East, the Gulf States--a lot of money, 
all these different things that has already been mentioned by 
my colleagues.
    But without a doubt, we have to do something about this and 
I think this, as I said, after what happened it is the most 
timely hearing we could have on the Hill.
    Thank you.
    Mr. Poe. I thank the gentleman.
    The Chair wants to recognize the gentleman from New York, 
Mr. Higgins, and also I recognize the work that he is doing on 
the issue of kidnapping of Americans for ransom.
    So the gentleman from New York is recognized.
    Mr. Higgins. Thank you, Chairman Poe. Thank you for holding 
this, obviously, important and timely hearing.
    Kidnapping for ransom, antiquity smuggling and private 
donations represent an alarming and largely under appreciated 
source of terrorist financing that has largely gone 
unaddressed.
    Further complicating our counter financing efforts, many of 
these transactions are conducted without reliance on the 
international banking system, rendering many of our tools such 
as sanctions and terrorist designations ineffective.
    In recent years, kidnapping for ransom has become an 
increasingly lucrative enterprise with reports indicating as 
much as $165 million has been paid to al-Qaeda and ISIS since 
2008 for the return of hostages.
    Unlike the United States and United Kingdom, many of our 
allies continue to pay ransoms, resulting in a vicious cycle in 
which terrorist groups specifically seek out citizens of 
countries known to pay, resulting in more kidnappings.
    We must ensure our friends and allies halt government-
sponsored ransom payments. Doing so will lead to fewer 
kidnappings while also depriving terrorists of a major revenue 
source.
    I am pleased to be working closely with Chairman Poe to 
develop legislation to address this issue and I look forward to 
today's witnesses and I yield back the balance of my time.
    Mr. Poe. I thank the gentleman from New York.
    The Chair now recognizes the gentleman from South Carolina, 
Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman, for your leadership on 
this critical issue of terrorist financing.
    I would like to extend my sincerest appreciation to Ms. 
Foley for the courage that you have shown in coming before the 
committee today to share your story. Our hearts truly are with 
you and your family.
    The murderous attacks in Paris killing 159 citizens on 
Friday, the Beirut killing of 41 persons last week and the 
bombing of the Russian charter jet killing 224 innocent 
passengers October 31st further highlight the fact that our 
current methods of preventing Daesh ISIL's terror financing are 
not working.
    It is critical that America and its allies have the 
necessary resources to cut off ISIL's funding from any source 
that we can.
    It is imperative that those who do business or provide 
funding to the Islamic State in any way are able to be 
accurately identified and that we have laws in place to deal 
with them.
    I look forward to the recommendations of the panel.
    Mr. Poe. Do any other members wish to be recognized for an 
opening statement?
    Therefore, without objection all members will have 5 days 
to submit statements, questions, extraneous materials for the 
record subject to the length limitation in the rules.
    And also without objection, all the witness' prepared 
statements will be made part of the record. I ask that each 
witness please keep your presentation to no more than 5 
minutes. I will introduce each witness and then give him time 
for their comments.
    Mr. John Cassara is a formal special agent to the U.S. 
Department of Treasury's Office of Terrorism and Financial 
Intelligence. Mr. Cassara is considered an expert in money 
laundering in the Middle East and the growing threat of 
alternative remittance systems.
    Dr. David Weinberg is a senior fellow at the Foundation for 
Defense of Democracies where he worked primarily on Saudi 
Arabia and the Gulf States.
    His research in this area focuses on energy security, 
counter terrorism, alliance transparency and human rights.
    Ms. Diane Foley is the mother of James Foley, an American 
journalist who was kidnapped and killed by ISIS last year.
    She is the founder of James Foley Legacy Foundation to 
continue James' legacy of freedom and justice for those without 
a voice, and once again, Ms. Foley, thank you very much for 
being here today.
    Dr. Michael Danti currently serves as the academic director 
of the American Schools of Oriental Research Cultural Heritage 
Initiatives, which monitors and reports on the heritage 
situation in Syria and northern Iraq.
    He is a Near Eastern archeologist with experience directing 
programs in Syria, Iraq and Iran.
    Mr. Cassara, we will start with you and you have 5 minutes.

   STATEMENT OF MR. JOHN CASSARA (FORMER SPECIAL AGENT, U.S. 
                  DEPARTMENT OF THE TREASURY)

    Mr. Cassara. Chairman Poe and members of the subcommittee, 
thank you for the opportunity to testify today. It is an honor 
for me to be here.
    Mr. Chairman, I have submitted a written statement. I would 
like to take just a few minutes to give a brief summary.
    Kidnapping for ransom is a crime as old as antiquity. 
Unfortunately, in recent years, terrorists and associated 
criminal organizations have turned to kidnapping as a 
relatively easy and lucrative source of funding.
    The United Nations' estimates that approximately $120 
million in ransom payments was paid to terrorist groups between 
2004 and 2012. Some experts believe kidnapping for ransom is 
our most significant terrorist financing threat today.
    As the tragic events in Paris last Friday make clear, the 
United States and the international community are rightfully 
alarmed about ISIS.
    The terror organization has kidnapped multi hundreds if not 
thousands of victims including local Iraqis, Syrians, members 
of ethnic minorities as well as Westerners and other foreign 
nationals living in the region.
    Some were brutally murdered to send a political message. 
Others were used to extract ransom payments. According to the 
Financial Action Task Force, in 2014 ISIS raised approximately 
$45 million from kidnapping for ransom.
    In fact, because kidnapping and associated crimes such as 
extortion have been so successful, it appears the average 
ransom payment is increasing. It is a vicious cycle.
    There is no doubt that ransom payments lead to future 
kidnappings, and future kidnappings lead to additional ransom 
payments and, of course, the ransom payments eventually build 
the capacity of terrorist organizations which fuels additional 
terrorist attacks.
    There have been several United Nation Security Council 
resolutions attempting to curtail ransom payments into 
terrorist organizations' coffers. Despite the restrictions, the 
world has not stopped payment.
    Of course, the complicating factor is our humanity. It is 
difficult to turn away from the anguished cries of those 
kidnapped and the frantic appeals of those--of their loved 
ones.
    Last week, a new book that I wrote was released, ``Trade-
Based Money Laundering: The Next Frontier in International 
Money Laundering Enforcement.''
    It is often overlooked but the misuse of trade and 
associated underground financial systems are often part of the 
kidnap for ransom equation.
    For example, money and value transfer services are found 
throughout Iraq and Syria, including areas where ISIS operates. 
Sometimes they are called hawaladars. They are trusted brokers 
and have established relationships throughout the region. They 
operate on trust and secrecy.
    Hawaladars generally do not conduct electronic fund 
transfers as banks do but rather communicate via email, fax and 
phone with a local or foreign associate to pay or receive 
payment from a counter party to the transaction.
    Eventually brokers have to settle their accounts. Sometimes 
they use cash, sometimes the conventional banking system.
    But I want to emphasize and something that is continually 
overlooked and that is historically and culturally in all areas 
of the world where terrorist adversaries opposite, trade-based 
value transfer is used to balance the books or settle accounts.
    So examining trade records for invoice fraud and value 
transfer could be the back door into money and value transfer 
systems used by terrorists.
    Unfortunately, neither the United States nor partners are 
doing this. Moreover, I can make the argument that if one 
includes all its varied forms including underground financial 
systems, trade-based money laundering could very well be the 
largest money laundering methodology in the world and 
unfortunately it is also the least understood, recognized and 
enforced.
    Yet, I am optimistic. By using modern analytic tools to 
exploit a variety of relevant big data sets, I believe 
international trade transparency is theoretically achievable or 
certainly possible to factor many times over what we have 
today.
    As an added bonus, cracking down on trade fraud could also 
be a significant revenue enhancer for the governments involved.
    In my book and written statement I go into detail on many 
of these issues and I provide a number of recommendations on 
achieving trade transparency so as to combat trade-based money 
laundering, underground finance and terror.
    I appreciate the opportunity to appear before you today and 
I am happy to answer any questions you may have.
    Thank you.
    [The prepared statement of Mr. Cassara follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
       
                              ----------                              

    Mr. Poe. The Chair will recognize Dr. Weinberg for your 
statement.

   STATEMENT OF DAVID ANDREW WEINBERG, PH.D., SENIOR FELLOW, 
             FOUNDATION FOR DEFENSE OF DEMOCRACIES

    Mr. Weinberg. Chairman Poe, Ranking Member Keating and 
distinguished members of the subcommittee, thank you on behalf 
of the Foundation for Defense of Democracy's Center on 
Sanctions and Illicit Finance for the opportunity to be here 
today.
    I will highlight some worrisome weak links in America's 
efforts to convince our allies to target financial facilitators 
and private donors to terrorism who often go unpunished.
    I will also offer some policy recommendations to hopefully 
help address the growing epidemic of kidnapping by terrorists 
for ransom.
    While I will defer to others on this panel regarding 
antiquities trafficking, I would ask your approval to enter 
into the record CSIF's new report by Yaya Fanusie and Alex 
Joffe on antiquities trafficking in financing the Islamic 
State.
    Mr. Poe. Without objection, that will be made part of the 
record. Thank you, Dr. Weinberg.
    Mr. Weinberg. Thank you.
    Several of America's Mideast allies, namely, Qatar, Kuwait, 
Saudi Arabia and Turkey, unfortunately pursue problematic or 
even adversarial positions over tackling private terror 
finance.
    Despite promises to do so, they have failed to effectively 
obstruct the flow of such funds and to try punishing its 
practitioners.
    In my written testimony, I note dozens of reported examples 
of such negligence. In many instances, these governments grant 
legal impunity to people whom the U.S. and the U.N. have 
sanctioned on charges of funding al-Qaeda.
    In my written remarks, I also reveal new indications that 
Turkey, Qatar and Saudi Arabia have let their territories 
become major financial hubs for Hamas.
    To ensure that our Government's terror finance sanctions 
list isn't treated in the region as a mere toothless piece of 
paper, the U.S. should develop a broader range of options for 
when our allies refuse to do the right thing versus terror 
financiers.
    Congress can help sensitize members of the executive branch 
outside of Treasury to these concerns. When the U.S. is 
absolutely confident that an individual who enjoys legal 
impunity in one of these jurisdictions is indeed a senior 
financial facilitator for terrorism, the U.S. could privately 
and then publicly seek that individual's extradition.
    If that fails, the U.S. could even consider capturing and 
killing them as it does toward other terrorist operatives.
    Congress could help hold these governments responsible as 
well for extending such impunity by restricting trade in dual-
use items as suggested under the Export Administration Act of 
1979 and by, again, amending the Foreign Sovereign Immunity Act 
so victims of terrorism and their families can sue foreign 
governments in civil court for letting terror financiers and 
other operatives enjoy local impunity.
    As for the vicious terrorist tactic of kidnapping for 
ransom, we should recognize that Americans are still evidently 
being held hostage by terrorists today.
    In 2012, Treasury described kidnapping for ransom as 
``today's most significant source of terror financing.'' Now, 
the volume of that income has only increased since then.
    ISIS actually makes more money off of oil sales, but 
ransoms have helped it and al-Qaeda conquer that territory in 
the first place. The Obama administration announced a new 
hostage policy in June which was mainly comprised of efforts to 
be more responsive and effective at hostage recovery.
    But there is little sign that this is being matched by 
efforts to decrease the money that terrorists take in from such 
tactics, even though the New York Times, AP, Reuters and the 
Wall Street Journal have described allied governments in Europe 
or in the Gulf as sources of such payments.
    Although these states deny paying ransoms, the Journal 
called such state payments game changers which can fuel the 
growth in ransom payments and incentivize future kidnappings.
    Doha's reported role is particularly striking. In my 
written testimony I compiled press reports of 15 different 
episodes within 3 years alone in which Qatar is reported to 
have helped mediate hostage talks, typically with terrorists, 
and often in which a multi-million-dollar ransom was discussed 
or allegedly paid to the terrorists by Qatar.
    The U.S. should stigmatize governments that pay state 
ransoms. Congress could require the administration to expose 
such governments in public, perhaps even imposing targeted 
financial sanctions.
    President Obama should also direct diplomats to prioritize 
convincing those governments in several key countries to stop 
paying such state ransoms and Congress can encourage policy 
makers abroad to enact such prohibitions into local law.
    The U.S. could also follow in Britain's steps, blocking 
insurance companies from reimbursing ransoms to terrorists, but 
only provided this can be done in a manner that would not 
impose an undue additional burden on hostages' families.
    Finally, Congress and the administration could consider 
starting a fund with seized terrorist assets to compensate 
kidnapping victims and their families for their suffering.
    The good news is that the U.S. now has a plan to try and 
improve efforts at hostage recovery and the proof will be in 
how well those steps are implemented.
    The bad news is that U.S. policy is failing to deter 
foreign governments primarily our allies from paying multi-
million-dollar ransoms that enrich terrorists and incentivize 
future attacks.
    Our Government needs a new strategy to address this 
critical part of the problem and Congress can help facilitate 
that debate.
    Thank you very much.
    [The prepared statement of Mr. Weinberg follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                 ----------                              

    Mr. Poe. Thank you, Dr. Weinberg.
    Ms. Foley.

 STATEMENT OF MS. DIANE FOLEY, FOUNDER, JAMES W. FOLEY LEGACY 
                        FOUNDATION INC.

    Ms. Foley. I am Diane Foley, mother of American journalist, 
James Foley, who was publically executed by ISIS, as you know, 
in August 2014.
    And I certainly want to say that our thoughts and prayers 
are with the people of France and who have suffered such tragic 
loss at the hands of ISIS.
    But we too as Americans have suffered from ISIS. Our son, 
James, was tortured and starved by ISIS for nearly 2 years just 
for being an American.
    Our family's ordeal was made worse by our incoherent and 
often ineffective hostage policy. Jim was the oldest of our 
five children born into a very average American middle class 
family.
    He was well educated, holding two Master's degrees in 
writing and journalism. But far more importantly, he was a man 
of service--teaching in our inner cities in Phoenix through 
Teach for America and later in Chicago and Massachusetts.
    He was always passionate about those without a voice, be 
they hostages, conflict journalists or disadvantaged children 
in our inner cities. In fact, his belief in human rights 
actually led him to become a journalist so that we Americans 
might hear the unheard stories of suffering in conflict zones.
    In my opinion, our current American hostage policy has not 
changed. I am very aware that our U.S. public policy is no 
concessions to terrorists to include no ransom or release of 
prisoners.
    However, our policy also states that the United States will 
use every appropriate resource to gain the safe return of our 
American citizens held hostage by terrorists.
    During Jim's horrific captivity in Syria, our policy was 
interpreted to mean no concessions, no engagement with his 
captors. Since 9/11, our Government officials have often 
mistaken no concessions for meaning no negotiations, leading to 
an inconsistent and often unjust approach to the kidnapping of 
our citizens.
    The hands of our powerful FBI were tied during the 2014 
Syrian captivity of our son, Jim, and three other American 
citizens held by ISIS.
    I am told that our strict adherence to this policy saves 
lives by decreasing the rate of capture of Americans. But no 
one has been able to show me the research behind our hostage 
policy.
    In fact, it would seem that Americans are becoming targets 
at an alarming rate. I respectfully demand to see the proof 
that our current hostage policy is truly protecting Americans.
    It did not protect Jim or Steven or Kayla or Peter. In the 
last 18 months, these four Americans have been killed because 
our policy was strictly applied, whereas five other Americans--
Casey Coombs, Sam Farren, Scott Darden, Theo Curtis and Sgt. 
Bergdahl--who were negotiated for by us or others have returned 
home safely.
    This inconsistent implementation of our American hostage 
policy is unacceptable. Additionally, I would have you 
gentlemen know that we were deceived as an American family.
    We were told repeatedly that Jim was their highest 
priority--your highest priority. We trusted our Government to 
help him return home.
    During the brief month that Jim's ISIS captors reached out 
to negotiate for his release, our Government refused to engaged 
with the ISIS captors, leaving us alone as parents to negotiate 
for our son's freedom.
    Eighteen months after Jim's captivity our family and three 
other families of hostages held with Jim in Syria were 
threatened by Col. Mark Mitchell, member of our National 
Security Council, with prosecution by our Government, although 
there was never any precedent, if we attempted to raise a 
ransom to free our loved ones.
    He also very clearly told us that our Government would not 
ask allies to help negotiate release and would never conduct 
any military operation to rescue them.
    He made it very clear that our United States Government 
planned to abandon these four Americans. Thus, it became clear 
that Jim, Peter, Steven and Kayla were considered collateral 
damage and that we families were truly on our own.
    I had spent much of our family's savings, quit my job as a 
nurse practitioner to travel monthly to Washington to beg for 
help for Jim, to the United Nations, countless Embassies and to 
Europe multiple times to speak to freed hostages, all to no 
avail.
    While our U.S. senators reached out to us and were 
sympathetic, we never even heard from our United States 
congressman. The family--the Foley family did try to raise a 
ransom for Jim's relief in spite of threats of prosecution.
    But because we believed in our Government to help, we 
started much too late and were unable to raise the money to 
interest ISIS. The reality is that very few families would be 
able to raise money actually needed to free their loved ones.
    Our U.S. Government also refused to engage at a high level 
with our allies who also had citizens held by ISIS. At one 
point, there were over 20 Western hostages held together and 
all of them our allies.
    In the spring of 2014, a freed French hostage had very 
specific information from ISIS to negotiate for our four 
American hostages and the three British ones. But our 
Government refused to engage with the French or U.K. to save 
our citizens.
    The result is that all the European hostages are now home 
whereas our son, the other Americans and British were brutally 
killed.
    Although we had specific information regarding the exact 
location of their captivity beginning in the fall of 2013, a 
military operation was not even attempted until July 2014 after 
all the Europeans were safely home.
    We are sincerely grateful to the brave soldiers making that 
attempt but it was much too late. In our situation, our hostage 
policy prohibited our Government from interacting in any way 
with Jim's captors, prohibited even from investigating who our 
son's captors were.
    Had our Government been allowed to engage the captors, 
perhaps vital intelligence about ISIS might have been gleaned. 
Our Government's abandonment of Jim allowed their deaths to be 
used as propaganda for ISIS recruitment, thus strengthening and 
emboldening ISIS.
    It surely helped in their recruitment of other violent 
people who want to destroy us. As I said before, at one point 
there were more than 20 Western hostages held together, all of 
whom are citizens of our allies. All our Western allies value 
their citizens enough to negotiate for their freedom.
    Had Jim been French, Spanish, German, Italian or Danish he 
would be alive today. You know, we form coalitions for war. Why 
did we not engage with our allies to free all the Western 
hostages?
    I believe that much stronger coalitions with our allies are 
essential to deal with the shrewdness and hatred of these 
terrorist groups. I fear that our posture of no engagement with 
Jim's ISIS captors led to our underestimation of their 
intelligence and their deep-seated hatred for the United States 
and our citizens.
    What if we had been shrewd enough to engage Jim's Syrian 
captors in the fall of 2013 to learn all we could about them 
instead of ignoring them? Is it ever wise to ignore enemies of 
freedom and justice?
    You know, Jim believed in America. He believed that our 
Government valued him as a journalist, as a citizen. I am told 
he was hopeful until the very end of his 20 months of 
captivity.
    He and our family were truly abandoned by our Government. 
How would you feel if one of your sons or daughters had been in 
Jim's predicament and had been treated similarly?
    Four Americans were publicly beheaded. Where is our outrage 
as Americans? Is an individual American citizen no longer 
valuable? Why would Jim and the other Americans in Syria 
considered collateral damage?
    If our United States of America truly wants to protect and 
prioritize the return of its citizens, if so I ask you esteemed 
Members of Congress to hold this new fusion cell accountable 
for the return of our American citizens and to mandate a 
thorough reevaluation of our current hostage policy to make 
sure that recent validated research is being done to ensure 
that our policy truly saves the lives of Americans.
    Thank you for your attention. I appreciate it.
    [The prepared statement of Ms. Foley follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               ----------                              

    Mr. Poe. Thank you, Ms. Foley, very much.
    Dr. Danti.

  STATEMENT OF MICHAEL D. DANTI, PH.D., ACADEMIC DIRECTOR OF 
CULTURAL HERITAGE INITIATIVES, THE AMERICAN SCHOOLS OF ORIENTAL 
                            RESEARCH

    Mr. Danti. Thank you, Chairman Poe and Ranking Member 
Keating, for this opportunity to discuss terrorist financing 
through antiquities trafficking.
    It is an honor to be here among such esteemed company but, 
of course, with a heavy heart and with very serious concerns.
    Since the outbreak of the Syrian civil war in 2011 and 
sudden expansion of the so-called Islamic State, or ISIS, in 
2014, we have witnessed the worst cultural heritage crisis 
since World War II.
    On a daily basis cultural sites are being destroyed for 
tactical, strategic, economic and ideological reasons. 
Antiquities and other cultural property are being pillaged to 
finance continued conflict and global terrorism.
    As an archeologist who has worked in Syria and Iraq for the 
last 25 years, there is not a day that goes by when I don't 
anguish over the current plight of the Syrian and Iraqi people 
and the atrocities ISIS and other groups are committing.
    My colleagues and I at the American Schools of Oriental 
Research work closely with Syrian and Iraqi cultural heritage 
experts and other concerned parties who are daily risking their 
lives to save heritage from systematic campaigns of cultural 
cleansing.
    These brave heritage professionals understand the 
importance of ensuring a brighter future by preserving the past 
and cultural diversity.
    The current conflict in Syria and Iraq is a war over ideas 
and cultural identity that is rapidly spreading to neighboring 
countries.
    The project I direct, the American Schools of Oriental 
Research Cultural Heritage Initiatives, constantly monitors the 
cultural heritage crisis in Syria and northern Iraq, implements 
heritage projects in Syria and produces reports and conducts 
outreach for the U.S. Government and the general public.
    We have seen that most of the major combatants commit 
cultural property crimes. But by far, ISIS is our greatest 
concern. Over the last 16 months, ISIS has developed a highly 
organized approach to looting, trafficking and selling 
antiquities and other cultural property for funding.
    ISIS also brazenly destroys heritage places to promote its 
radical ideology and gain media exposure.
    There is no doubt that terrorists derive significant 
revenue from looted ancient antiquities and stolen cultural 
property. Satellite imagery, in-country sources and open-source 
information support this conclusion.
    Information in antiquities recovered by U.S. Special 
Operations forces during the Abu Sayyaf raid in May of this 
year proves ISIS uses the illicit antiquities trade as an 
important source of revenue.
    To ISIS, antiquities are a natural resource to be mined 
from the ground or pilfered from cultural repositories. This 
criminal activity has increased as other revenue streams such 
as oil have been targeted through air strikes or other counter 
measures.
    Antiquities trafficking is difficult to target and for ISIS 
and other extremists it has the benefit of rewarding 
collaboration with employment.
    Antiquities trafficking doesn't make as many enemies among 
the local population as other crimes but instead it exploits 
poverty and hopelessness. Also, antiquities serve as 
instruments for money laundering.
    We don't know the total dollar values of the illicit 
antiquities trade. There are too many unknowns. But ISIS and 
other transnational criminal organizations certainly find it 
crucial to their operations and the financial and cultural 
costs of the destruction are manifest now and will have a 
cascading effect for generations to come.
    The current crisis requires increased and improved 
capacities in the United States for cultural security and 
cultural diplomacy. We need a more proactive and nimbler 
approach that couples existing governmental and nongovernmental 
capacities.
    High level coordination would greatly enhance this work and 
would facilitate containing, degrading and ultimately 
destroying ISIS and other radical groups and transnational 
criminal organizations operating in the Middle East, North 
Africa and beyond.
    Reducing global market space for conflict antiquities 
should be one of our highest priorities. Legislation is pending 
in the House and Senate that would help to achieve these goals.
    Ultimately, the best solutions for the current cultural 
heritage crisis in Syria and northern Iraq also contribute to 
alleviating the humanitarian crisis, promoting conflict 
resolution, strengthening counter terrorism efforts and 
fostering peace building.
    Thank you.
    [The prepared statement of Mr. Danti follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. Thank you very much, Dr. Danti. Thank you all for 
being here today. I recognize myself for some questions.
    It seems to me, and I may not have all of their sources of 
revenue, but we have heard that terrorist groups will do 
anything for money. They will steal, like the robberies of the 
banks in Iraq.
    They will, as Mr. Cassara talked about--I call it money 
laundering. I am a former judge. I call that money laundering 
what you were talking about--cooking the books on trade. They 
make money off of antiquities.
    They make money off of hostages and they make money off of 
their wealthy donors who want to send money to these terrorist 
groups. And there are probably a whole lot more.
    Let me try to address a couple of issues. Ms. Foley, you 
gave us some remarkable information and if I understand the 
current status of American hostage law or procedure, the United 
States has always had a policy not to pay ransom.
    Now it has changed that the government won't pay money for 
ransom but if families or individuals do that law will not be 
enforced as to that payment.
    Is that your understanding of the current status?
    Ms. Foley. Families, you know, in criminal activity--a 
family has never been prosecuted for paying ransom to criminals 
who have a loved one. So there is----
    Mr. Poe. That is what I am asking. So as far as you know, 
no family has ever been required----
    Ms. Foley. No. I know that, because we researched it, 
because we finally realized we were on our own and we had to 
try to raise a ransom.
    But of course we wanted to protect anyone, you know, who 
would care to help us. So there is no precedent for that, sir.
    Mr. Poe. So that portion of the law, as the President said, 
is not being enforced as to prosecute families that pay for 
ransom?
    Ms. Foley. Well, it really was never meant to prosecute 
families. It was meant to----
    Mr. Poe. It has never--okay.
    Ms. Foley [continuing]. Prosecute any groups that might 
pretend to be a charity and instead give money to finance 
terrorism or something. It was never meant to be----
    Mr. Poe. Was your son kidnapped for ransom or was he 
kidnapped as a propaganda tool or both?
    Ms. Foley. That is a good question. Only God would know 
what might be--might have might have been in their heads. He 
was a Westerner.
    They don't check passports when they kidnap people, sir. 
You know, he was obviously a Westerner. He had been in and out 
of Syria.
    He had been there over a year and more and more of the 
jihadists had come in in 2012. Jim had made very good relations 
with a lot of the family there and was trying to expose the 
atrocities of the Assad regime so felt, you know, protected.
    A lot of the rebels really welcomed journalists early on so 
that their plight might get out to the world. But some people--
--
    Mr. Poe. He was used as a propaganda tool, too, though, 
wasn't he?
    Ms. Foley. I think--I think initially they wanted to make 
money off of him.
    Mr. Poe. Okay.
    Ms. Foley. Oh, yes. Oh, yes. The propaganda only came when 
our Government would not engage in any way. Nobody would 
negotiate for him. No one cared. So they thought well, hey, we 
can make a spectacle of this. We can really use--get a lot of 
PR out of killing these Americans.
    Mr. Poe. Dr. Weinberg, let me ask you some questions about 
the Gulf States. I am going to be real specific here, probably 
going to hurt somebody's feelings in the Gulf States.
    We have a military base in Qatar that we use to fly 
aircraft in the Middle East when we are engaged in military 
activities in Afghanistan or Iraq. Is that right?
    Mr. Weinberg. That is correct.
    Mr. Poe. So Qatar helps us out with that. But we know that 
Qatar has donors there--wealthy donors who give money to 
terrorist groups. Is that correct?
    Mr. Weinberg. It has certainly been correct in the past.
    Mr. Poe. Do we know who those donors are? Do we know their 
name, rank and serial number, so to speak?
    Mr. Weinberg. The United States has sanctioned a number of 
Qatari nationals----
    Mr. Poe. What does that mean--don't do this anymore? I 
mean, what is a sanction against a national in Qatar who gives 
money to terrorist groups?
    Mr. Weinberg. That is exactly the problem, sir. They----
    Mr. Poe. Don't do anything, don't do it again, it is not 
nice.
    Mr. Weinberg. And the problem is that they--the local 
government often doesn't do anything about it. In fact, I have 
seen not a single indication of Qatar prosecuting anybody and 
convicting them under terror finance laws that have been on the 
books.
    Mr. Poe. Do we pay to have our military base in Qatar?
    Mr. Weinberg. No. The Qataris pay for it.
    Mr. Poe. Okay. So you think Qatar is playing both sides?
    Mr. Weinberg. I think Qatar is absolutely playing both 
sides in this regard and I think the United States----
    Mr. Poe. So they harbor people who give money to terrorist 
groups but they also have a military base where the United 
States can go and attack terrorist groups?
    Mr. Weinberg. Yes, and individuals the United States has 
sanctioned live just down the road from where this U.S. base is 
and if the United States chose to do so it would not be too 
difficult to launch air strikes if we were convinced or, you 
know, conducted some sort of operation.
    Mr. Poe. You mentioned that the United States has the 
authority to go after these people who are contributing to 
foreign terrorist organizations.
    Mr. Weinberg. If it chooses to use that capacity it is hard 
to envision----
    Mr. Poe. To your knowledge--this is my last question--to 
your knowledge of those different--I have two questions.
    How many people are we talking about that are contributing 
money to terrorist groups?
    Mr. Weinberg. The people sanctioned in Qatar, it is--you 
can count them on a single hand.
    Mr. Poe. It is not very many?
    Mr. Weinberg. No.
    Mr. Poe. And, second, have we ever extradited, prosecuted 
or taken out somebody who is giving money to terrorist groups, 
to your knowledge?
    Mr. Weinberg. Have we ever prosecuted, extradited? Well, 
the United States sought to capture Khalid Sheikh Mohammed from 
Qatari territory in the 1990s.
    He was a senior al-Qaeda operative responsible for attacks 
linked to the 1998----
    Mr. Poe. Did we ever get him?
    Mr. Weinberg. He--according to former U.S. officials cited 
in press reports, a senior Qatari, either royal family member 
or government official, tipped him off and he fled the country 
when we went to find him.
    Mr. Poe. So my question is--just answer the question. Have 
we ever captured, extradited, brought back one of these 
moneybag guys who are giving money to terrorist groups to the 
United States to prosecute them?
    Mr. Weinberg. Well, ultimately we caught KSM himself, who 
was a senior money man as well as operational man. But we did 
it in Pakistan.
    Mr. Poe. All right. Mr. Keating from Massachusetts.
    Mr. Keating. Thank you, Mr. Chairman.
    I think one of the most important things any of us can do 
as Americans is get to the root issues of what is going on even 
though it is dangerous, even though they risk their lives doing 
it and get that message out to the U.S. and the world.
    And Ms. Foley, your son did that and your testimony--I 
think he inherited a lot of his courage from his mother but--
and thank you for being here.
    I know that there are things we can do tangibly in terms of 
antiquities. I know there are things we can do in terms of 
trade-based money laundering. I know there are things that we 
can do to sanction some countries. But it is really troubling 
on the issue of kidnapping, ransom.
    Could you tell me a little bit about the James W. Foley 
Legacy Foundation you are so involved with, Ms. Foley? One of 
the things they do is hostage support. Could you describe what 
kind of work you do there and what the foundation is doing?
    Ms. Foley. In truth, we are just beginning. Jim was very, 
as I said, concerned about people without a voice. So one of 
the big issues, obviously, I have been concerned about are 
American hostages.
    They end up in a truly gray zone, and gray meaning that 
nobody knew whose job it was to try to get them out and no one 
really wanted to touch the issue. It is a hot potato.
    So one of the first things we have done this past year is 
we have raised funds for something called Hostage U.S., which 
will be similar to Hostage U.K. which will support American 
families in this predicament.
    But the James W. Foley Foundation wants to go further. We 
want our Americans home. So whereas Hostage U.S.--we are going 
to continue to support them because families need support but I 
couldn't have cared how I was treated if Jim were home and I 
really feel as Americans we need to be shrewder.
    We need to find a way to get them home, and I recognize 
that it is complex because of our--because we certainly don't 
want to fund terrorists. But is it wise to not even engage 
these people? Then we don't have a clue.
    We don't know what is going on. We don't know what they 
want. We don't know who they are and, you know, I don't think 
so. I just think we have to be a lot shrewder. Otherwise, we 
are going to be out of luck.
    So as far as the foundation, yes, we are working very 
closely with the fusion cell and Lisa Monaco, Jen Easterley, 
trying to find ways to hold them accountable for gee, a lot of 
U.S. assets have been given now.
    Fifty individuals have this mission to bring Americans 
home. None are home yet since they have been started.
    Granted, it is new but I am concerned because I think their 
hands are tied in a lot of ways. So that is one thing.
    The other issue is conflict journalism. These days--it used 
to be in World War II journalists and aid workers were off 
limits. People--they had a certain neutrality. Not so anymore.
    I mean, journalists and aid workers are targets and we have 
to be aware of that. So as a democracy ourselves, unless we 
come together for global safety for people who are giving us 
information, who dare to go where many don't dare to go, that 
is a huge concern of ours.
    So we are really--we are working with an international 
coalition for safety and journalism and continue to be 
concerned about children without access to education, because 
Jim loved children.
    He really felt education was the only way to--for societies 
to get out of poverty. So we are looking at that.
    Mr. Keating. One of the things I hope we can do is not have 
others experience everything that your family experienced and 
as you go forward with the foundation's work if you could keep 
us informed about some of the areas you think that we can get 
involved with as you go forward.
    Please do that. Feel free to do that because I think we can 
certainly do better.
    Ms. Foley. We better do better, sir. You know, it is 
frightening if we can't do better in that regard.
    Mr. Keating. I agree, and thank you----
    Ms. Foley. Thank you.
    Mr. Keating [continuing]. For that. Just another question 
for Dr. Danti. The May 15th raid on ISIL leader Abu Sayyaf--you 
called that a game changer at a certain point.
    What did we learn from that that we didn't know before?
    Mr. Danti. We learned that antiquities were very important 
to the organization and they were the functional equivalent of 
other natural resources.
    There were emails. There were documents indicating that Abu 
Sayyaf had been put in charge of that trade because it was 
important to the organization.
    He was found to be in possession of hundreds of 
antiquities, some of them looted from the Mosul museum, and he 
also had, disturbingly, photographs of other high-end items on 
his laptop. Some of those items we had been tracking are known 
to have been sold through Turkey.
    Mr. Keating. Okay. I don't know if anyone else wants to 
comment on that briefly. But I will say this, that many times 
in this very turbulent time of terrorism we are so frustrated 
we put up our hands and we can say what can we do.
    I think you four as witnesses have given us things we can 
do to further fight this effort and I appreciate it and I think 
these are very tangible real suggestions that can go forward on 
all fronts.
    Thank you. I yield back.
    Mr. Poe. I want the members to know that we are in the 
midst of voting. We will continue after votes. We have one 
vote. But we will not recess until we have at least one more 
member ask questions and then we will come back. I apologize to 
our panelists but that one vote shouldn't take a long time.
    Mr. Wilson from South Carolina.
    Mr. Wilson. Ms. Foley, again, thank you for your courage, 
and as a former reporter myself so many points you have made--
that indeed in other conflicts the journalists have been 
noncombatants.
    But it is such a chilling reminder that we are dealing with 
illegal enemy combatants not in uniform. This is just so--to 
me, so extraordinarily unprecedented and putting the American 
people at risk, and we are at a time even today, within the 
last 48 hours, that ISIL Daesh issued a statement that 
Washington and Rome are the next targets and so we have just 
got to be vigilant.
    That is why I appreciate the point that you are making too 
that where we all support no concession, no tribute, that 
doesn't mean not negotiate. So I--you are making a difference 
by raising these issues.
    And then it is appalling to me that there was not an effort 
of military rescue. Was there any reason--particularly when you 
indicate that it was an exact location of 20 together.
    With that information, it is just appalling to me that 
action was not taken. And that is one question. Then the next 
question why was that not done, and then, you know, with the 
attack in Benghazi we are still discussing who did it. What? 
This should be determined, and then there should be efforts to 
find them.
    So on both--why was there no action and what is the status 
of determining who these murderers are.
    Ms. Foley. Well, those are all good questions--questions 
that I truly don't have the answers for.
    All I know is an American citizen--we started to have 
eyewitnesses as of fall--early fall of 2013 of exactly where 
Jim was and our Government knew that there were three other 
Americans and British with him and where--quite sure that they 
also realized how many other of allies were also together 
because slowly the other--their allies were negotiating all of 
these people out.
    Jim had already been held a whole year before all these 
other peoples were added. Jim was one of the first--Jim and 
British citizen John Cantlie and, of course, Austin Tice, who 
was taken in August 2012.
    They were the first ones that I know of that were taken in 
Syria. But then gradually all these others were taken, most of 
them in later in 2013, and--but the other European countries 
got right on it and started negotiating with the captors so 
that their citizens came out.
    As far as where they were held, we had information 
throughout starting in the fall of 2013 and then again December 
2013. They were moved, but because hostages started coming out 
in early 2014 we were--we received very detailed information.
    As a matter of fact, it became clearer and clearer as the 
spring of 2014 went on because these European hostages came out 
with very specific information and some of them--one Italian 
citizen came to the U.S. twice on his own dime trying to get 
somebody to hear the specifics he had in terms of exact 
location of where they were being held.
    But no one wanted to hear it, and this--particularly 
Federico came more than any of the others. Some of the others 
hesitated to do that because their governments had figured out 
a way to get them out.
    So they, understandably, expected our Government to work 
with theirs to collaborate, if you will, to get our citizens 
out. But it didn't happen, sir.
    Mr. Wilson. Well, and it is inconceivable with the released 
captives that there couldn't be an effort to determine who the 
perpetrators are and so----
    Ms. Foley. Don't you think? I agree with you. I am appalled 
as an American, sir.
    Mr. Wilson. Well, I want to work with our chairman and get 
this straight. So thank you very much. I yield.
    Mr. Poe. The Chair will now go to Mr. Higgins for his 
statement.
    Mr. Higgins. Thank you, Chairman.
    Mr. Poe. Or questions. Excuse me.
    Mr. Higgins. Ms. Foley, in your testimony you had indicated 
that you and your family were left to negotiate with your son's 
captors. With whom would you negotiate and what was the nature 
of that discussion?
    Ms. Foley. Well, the only--the only opportunity we had, Mr. 
Higgins, was for a month in 2013 end of November we out of the 
blue got an email saying that they had Jim and they would send 
us--they wanted some questions, proof of life. Pardon?
    Mr. Higgins. Who is--who is they?
    Ms. Foley. They really didn't want us to know. They said 
they were Syrian rebels. They didn't identify themselves 
anymore than that.
    Mr. Higgins. So they initiated contact with you and your 
family?
    Ms. Foley. Mm-hmm. Absolutely. But it was through a very 
encrypted email that our FBI had no way of tracking. So they 
are very shrewd, sir. Very shrewd. They knew how to reach us 
but we didn't know how to reach them.
    Mr. Higgins. So you couldn't respond back?
    Ms. Foley. Well, I could--I could only respond through that 
email. But what I meant to say is we couldn't find out who was 
sending it. It was obvious that they were English speaking, 
however, because, you know, of the command of language.
    Mr. Higgins. And was there specifics about a ransom number 
or conditions?
    Ms. Foley. When they initially reached out to us, yes, it 
was ridiculous--like, it was--they wanted 100 million euro or 
all Muslim prisoners kind of thing and, you know, FBI--you 
know, of course, we right away sent it to FBI and they just 
said, oh, keep them talking--keep them talking.
    But within a few emails when they realized they were just 
talking to the family they had absolutely no interest and so 
they cut off discussions until the only other time, sir, was 
when the French came out in March 2014 they came out with 
another very specific offer to negotiate for all Americans and 
all the British.
    Mr. Higgins. And your primary source of contact in the 
United States was the FBI?
    Ms. Foley. We had no primary source. I did have one--we had 
one FBI agent who debriefed me all the time. But----
    Mr. Higgins. Debriefed you on what?
    Ms. Foley. Anything. I mean, I was--I was talking to 
anybody--all the freed hostages that I could. I said earlier a 
lot of times FBI couldn't even get to them. So----
    Mr. Higgins. At any point during your ordeal did you get a 
sense that your son was going to be freed at some point or----
    Ms. Foley. Not at all. However, our Government told me, 
anyone I talked to at State or FBI, that Jim was the highest 
priority. So we were deceived throughout the first 18 months.
    Mr. Higgins. You never believed that?
    Ms. Foley. Oh, I believed it totally, sir.
    Mr. Higgins. How long----
    Ms. Foley. That is why I didn't--we didn't try to raise 
ransom or do anything privately. Oh, we totally believed it.
    Mr. Higgins. When did you stop believing it?
    Ms. Foley. By the--by the late spring of 2014 when I 
could--primarily when Mark Mitchell threatened us three times 
and made it very obvious that our Government was going to do 
nothing for those citizens.
    Mr. Higgins. And what was the nature of Mark--what was 
his--what was his threat?
    Ms. Foley. Oh, that first of all as Americans if we dared 
to raise a ransom to get our loved ones out we would definitely 
be prosecuted and, secondly, there is no way our Government 
would ever ask another country.
    You know, he was going by the law and I know that the law 
says we are not--you know, we don't want Qatar to do these 
things and I--but what he was saying essentially is your 
government will do nothing to get your people out. Nothing.
    And he just said it in a very--I mean, God bless that man 
anyway. I don't know. It is just very appalling that as an 
American that we would do nothing for some of the best of 
America, some of our journalists, some of--people who care 
about the suffering of the people in Syria.
    It was appalling to me, sir.
    Mr. Higgins. I have no further questions.
    Mr. Poe. I thank the gentleman from New York.
    We will be in a short recess until the members vote and 
quickly come back and we will continue this.
    I want to thank the witnesses for your patience. But your 
information is so important that we don't want to--I don't want 
to end this hearing at this point.
    So we will be in recess until--for 15 minutes maximum.
    [Recess.]
    Mr. Poe. The subcommittee will reconvene.
    The Chair recognizes the gentleman from California, Mr. 
Sherman.
    Mr. Sherman. Thank you.
    Qatar doesn't just allow its citizens to give money to 
terrorist groups. Government money is going to Hamas and other 
terrorist groups.
    I think we have to get serious about this war. I will give 
you some examples of where at least some of our friends are not 
serious.
    The Iraqi Government pays salaries to former civil servants 
who live in ISIS-controlled areas. I do not remember General 
DeGaulle sending gold coins to French teachers in Normandy or 
Bordeaux.
    The oil fields controlled by ISIS we don't bomb. We bombed 
World War II oil fields. We don't bomb these. Some say it is 
because the Iraqis want to get them back intact. Some say it is 
because the Iraqi Government is making a lot of money on this 
war and doesn't want to see ISIS lose the revenue.
    But you have something which by the definitions of a war we 
took most seriously--World War II--is a strategic target. We 
know that ISIS is pumping the oil. We hit their mobile 
refineries but we won't hit the oil fields.
    We are not hitting the dams. We are not hitting their 
electric generation facilities and I can't get a straight 
answer out of either our Government or the Iraqi Government as 
to whether Iraq is providing free electricity to Mosul.
    But the lights are on for--and they are not on all the time 
but they are on for a reason. The biggest score--and I realize 
it may be slightly outside the definition of this hearing, 
although we do have the word donations in this--is ISIS has got 
its hands on $500, $800 million of Iraqi currency.
    Now, what other countries do for various reasons is that 
they issue new currency. You do a recall of the greenbacks and 
you issue bluebacks.
    Iraq didn't do that because that is a technique that is 
used to go after corrupt politicians and organized crime and 
when you have a Baghdad government installed by us, protected 
by us, financed with our money that is pretty dependent upon, 
infiltrated by, controlled by Iran, the Quds Forces and 
organized criminal and corrupt elements, they are not going to 
recall the currency.
    So the--as to hostages, we definitely should not do 
nothing. The raid didn't work but it shows a U.S. 
determination. We need to sanction Iran for holding five 
American hostages.
    The President made it clear that the deal in Geneva related 
only to nuclear weapons and if any other country was holding 
five of our hostages we would--we would certainly sanction 
them.
    Dr. Weinberg, does Qatar even pretend to outlaw voluntary 
contributions made by its citizens to Hamas? Is that a 
violation of Qatari law?
    Mr. Weinberg. So Qatari law doesn't discuss specific 
organizations in terms of the legislation. They have had 
several laws on the books, one actually approved by the emir 
this week banning individual--banning citizens from collecting 
money without authorization for donations.
    But this is the----
    Mr. Sherman. Well, that is collecting from others. What--is 
it illegal to just send your money directly--Hamas donation 
fund care of Gaza?
    Mr. Weinberg. The Qatari Government has given itself the 
authority to list terrorist groups or----
    Mr. Sherman. Have they listed any?
    Mr. Weinberg. Not to my knowledge. There--of the four laws 
intended to combat terrorism finance in the country the U.S. 
has yet to see serious convictions under----
    Mr. Sherman. So it is illegal to give money to anyone on 
the list, and the list is a blank piece of paper?
    Mr. Weinberg. The latest law, theoretically, means that you 
need to get governmental authority to collect donations for 
anybody. The question is----
    Mr. Sherman. To collect. But if--I mean, it is--if Qataris 
see that there is a disaster in Bangladesh and they give to the 
Bangladeshi Red Crescent Society or the--or UNICEF or something 
like that, they don't need government permission to write a 
check to UNICEF, do they?
    Mr. Weinberg. The--I think the most striking evidence in 
this regard is that the United States sanction to Qatari 
nationals in August, I believe, who, as I understand it, were 
running the most high profile fund-raising organization for 
Syria relief in Qatar.
    The U.S. alleged that they both were high level al-Qaeda 
financial operatives. It took the Qataris almost a year after 
the organization was allegedly, according to the Washington 
Post, endorsed by the Nusra Fund on social media for the 
Qataris to shut it down and a year after that when the U.S. 
actually sanctioned them, U.S. officials indicated the Qataris 
still had not arrested the two men.
    Mr. Sherman. Nor would we expect them to. I would point out 
to our friends in Qatar that just because you host a U.S. 
military base does not mean that the United States has to 
preserve your regime.
    We have a military base in Cuba. That doesn't mean we are 
supporters of the government in Havana--our policies changed 
from this way or that way. But it is nice to have the base 
there. That doesn't mean we have to support their government.
    I would also point out, and with Ms. Foley here, you know, 
I feel bad saying it but I don't think that we should be 
allowing--paying money--give ransom to terrorist organizations.
    From an emotional standpoint you want to. From an emotional 
standpoint it may get your--the particular loved one back. But 
it is just a while before they kill some other Americans or 
seize some other American hostages and, of course, with money 
that gives them both an incentive and a capacity.
    So I yield back and thank you for time.
    Mr. Poe. The Chair recognizes Mr. Keating from 
Massachusetts.
    Mr. Keating. Thank you, Mr. Chairman.
    A question about the nonprofit again--not just Qatar but 
particularly, Mr. Cassara, Dr. Weinberg, what other nonprofits 
are there in the world?
    Are some people donating unwittingly, not knowing where 
some of the money is going? Are we able to do this? If you 
could, just enlighten us on some of those sources of 
financing----
    Mr. Weinberg. Sure. Absolutely.
    Mr. Keating [continuing]. That the terrorists get.
    Mr. Weinberg. So this has been a longstanding practice 
among financiers of--financial operatives for al-Qaeda for 
years, which is basically while we can't openly practice what 
we do in many regards so let us cloak it in a veneer of 
charitable relief.
    There is a particularly noteworthy case in Kuwait as well 
and there was a fund-raising outfit operated by an individual 
named Hajjaj al-Ajmi, which was presenting itself in most of 
its presentations as relief for the Syrian people, support for 
legitimate resistance.
    But in practice, according to what the U.S. Government has 
designated, he was basically funding al-Qaeda in very large 
amounts and since then he has been called in for questioning by 
Kuwaiti authorities----
    Mr. Keating. Are donors aware--are some of them innocently 
being----
    Mr. Weinberg. Some of them are innocently being exploited. 
There are--the--this tribe in Kuwait as well as another tribe 
have been exploited by people trying to play on their 
sympathies.
    The challenge is that once these sorts of frauds are 
exposed the penalties are inconsistent at best in some of these 
places.
    And so the United States can work to try and build leverage 
to motivate the host governments to act because apparently so 
far they don't seem to be sufficiently consistently motivated.
    Mr. Keating. And I imagine if you just go with a nonprofit 
name and not the people behind, sort of like Whac-A-Mole 
because they can do this and start another nonprofit.
    Mr. Weinberg. Exactly. One of--in that instance one of the 
individuals--that individual is under sanctions but his co-
captain in one of his main fund-raising networks is still a 
senior operative in a Kuwaiti political party.
    Mr. Keating. Dr. Danti, just quickly. I am curious, too. 
With the--you know, the passageway for the antiquities what are 
some of the transit countries involved?
    What is being done there and are they following the say 
routes of other illicit activities like drugs or money 
laundering?
    Are there parallels and how can we--I think we can do 
things here at home to, you know, tamp down on demand, talk to 
people in the U.K. similarly, you know, motivated to do that in 
terms of final destinations but what about the transit 
companies--countries, rather, and what about--what can we do to 
disrupt that chain?
    Mr. Danti. Right. So in the cases that we have seen over 
the last 16 months, the primary trafficking points were 
antiquities coming out of Syria were Lebanon and Turkey, and 
from that point much of the material was going to Bulgaria and 
Greece and then with the objective of moving the material into 
the Schengen zone--the free border zone.
    Those are the cases that we were looking at. There were 
allegedly routes taking material to Jordan, Israel and the Gulf 
as well.
    Since, let us say, October some of those routes have 
shifted as the Turks have taken military action. Some of the 
border crossings that Islamic State was using have fallen to 
YPG, or Turkish forces, and we see initial indicators that some 
of the Sunni Arab and Islamic State ISIS trafficking is moving 
out toward Lebanon.
    There has been a shift in the markets there presumably to 
take the material from Lebanon to either Cyprus, Greece or 
Bulgaria.
    I would say that in terms of trying to shut that trade down 
what could be done is to limit the number of ports that are 
involved in illicit trade in antiquities and also to limit the 
number of people who can legally import antiquities.
    Mr. Keating. Are they following other illicit activities 
like drugs or money laundering? Any of those?
    Mr. Danti. Yes. In looking at the--into the routes that the 
material was taken through Turkey and Bulgaria it was following 
a lot of other contraband out of the country--for example, 
stolen automobiles, their stolen capital goods, and following 
the routes that fighters--Islamic State fighters were entering 
the country through and in illegal weapons the same border 
crossings--for example, the Tell Abyad-Akcakale border crossing 
that the--that ISIS told its would-be migrants to use to come 
and join the caliphate in a PDF that was posted online.
    Satellite imagery, in-country sources indicated that was a 
route that the antiquities were leaving the country from to 
ports in western Turkey and in southern and western Turkey 
where Islamic State essentially is surely alighting with or 
joining up with organized crime units within Turkey to move 
that.
    Islamic State is essentially new management taking 
advantage of existing looting networks and existing trafficking 
networks that predate the conflict period and they have 
essentially just encouraged additional--far more looting and 
trafficking of antiquities.
    But these routes existed in the pre-conflict period.
    Mr. Keating. Just quickly, any human trafficking involved 
in that?
    Mr. Danti. Not that I am aware of.
    Mr. Keating. Okay. Thank you. I yield back, Mr. Chairman.
    Mr. Poe. Chair recognizes the gentleman from New York.
    Mr. Higgins. Thank you, Mr. Chairman.
    I just--you know, kidnapping for ransom has, you know, 
become a significant source of terror financing. In 2003, al-
Qaeda would get about $200,000 per hostage. Now, they are 
getting about $10 million.
    Over half of al-Qaeda's operating revenue comes from ransom 
from kidnapping. But ISIS seems to be different. ISIS seems to 
be involved in other activity and a lot of their ability to 
raise funds is locally--terrorizing the local population, 
taxing people.
    Every activity that is done there is taxed and results in a 
revenue source for ISIS. Any thoughts about that distinction 
and what is gleaned from it? Anybody on the panel.
    Mr. Weinberg. So I think it is--it is certainly important 
to contextualize this, like you said, and to say that the 
primary sources of revenue that ISIS in particular have are 
derived from controlled local territory.
    I think it is also important for us to recognize that 
Treasury has indicated ISIS as well as branches of al-Qaeda in 
Yemen and north Africa have been able to conquer territory in 
part because they have used private donations as well as 
ransoms to fuel and to fund that territorial conquest.
    Particularly as the United States and our allies work to 
cut off their income from oil smuggling and from other--and 
from their ability to even hold territory in the first place 
they are going to fall back on these other sorts of revenue as 
well. And so if we really want to conquer this phenomenon we 
need to address this.
    We have also learned that ISIS and al-Qaeda frequently will 
use these private donations and other sorts of external funding 
to particularly pay for moving recruits from other countries, 
which they have done in the tens of thousands, to battle zones. 
And so if we can cut off these two other sources of funding we 
may be able to limit the abilities--the ability of the 
organization to function even if it still has other sources of 
revenue.
    Mr. Cassara. It is not only sources of funding, it is 
laundering money. I would just like to share a quick anecdote.
    About 2002, not too long after 9/11, I had a conversation 
with a Pakistani gentleman who I guess you could charitably 
describe works in the gray markets.
    And I was talking to him about things we are talking about 
today. I was talking to him about trade-based money laundering, 
over and under valuation, hawala, the misuse of the Afghan 
transit trade, et cetera, et cetera.
    And he finally turns to me, he says, Mr. John, he says, 
don't you know that your enemies are transferring money in 
value right under your noses but the West doesn't see it. Your 
enemies are laughing at you.
    And I think that kind of encapsulated a lot of what this 
issue is all about. We have spent an incredible amount of time 
the last 14 years since 9/11 looking in many of the wrong 
places.
    We have been concentrating on financial intelligence, 
setting up financial intelligence units, filing suspicious 
activity reports, sanctions and designations. We are a nation 
of laws.
    Our adversaries, the terrorists, they are not. They are 
laughing at us, okay. We need to start thinking how they 
operate, all right. We need to understand their cultures, their 
methods of doing business, their values.
    We are making progress but it has taken far too long. I 
think we are kind of emphasizing the wrong things. Just an 
observation.
    Ms. Foley. I would concur with that in a big way. I mean, I 
just feel that they have the upper hand because they are 
shrewder.
    They are--they have studied us. They know how to use 
Twitter. They know how to use PR, video, et cetera, to get 
their message, to recruit people who hate us, and we--you know, 
we won't even talk to them.
    I mean, we have got to know our enemies. We have got to use 
our cultural expertise to really get serious about engaging 
with us.
    You know, I mean that is why, you know, I realize Jim was 
just a young American but he--they didn't--our FBI and State 
didn't use that situation with four Americans being held there 
to find out who are these people that are holding our four 
Americans.
    Why are they holding our--what do they want? They didn't 
even try, and how are we going to understand and engage this 
enemy if we don't even try to know them? Thank you.
    Mr. Higgins. Yield back.
    Mr. Poe. Chair recognizes himself for two more questions in 
closing.
    In addition to the list we started out making about where 
terrorist organizations get their money we have to now add 
wildlife poaching is another way they get their money, and as 
my friend from New York mentioned, human trafficking--they make 
money off of human trafficking as well and charities.
    Let me ask you something, Dr. Weinberg. You mentioned 
specifically about charities in other countries. Do we have 
charities in the United States that are not really charities--
they are just a front for money laundering or donations that go 
to charity but ends up in the hands of these bad guys?
    Mr. Weinberg. Yes. The--most recently U.S. law enforcement 
authorities I believe pressed charges against a network of 
several Yemeni nationals who were using illicit methods within 
the United States to fund-raise for al-Qaeda in the Arabian 
Peninsula including defrauding credit card companies, taking 
out money and then closing down the accounts.
    Also, if you look back historically Hamas used U.S. 
territory quite deftly in methods that were exposed during the 
Holy Land Foundation trial and many of those individuals have 
gone on abroad--people who are linked to the Holy Land 
Foundation--to continue to be parts of Hamas' regional 
financial network including one case I identified in my written 
testimony.
    Mr. Poe. And once again, the handful of individuals who do 
most of the contributing to foreign terrorist organizations, 
giving them money, we know who those people are.
    Is that right or not?
    Mr. Weinberg. Sometimes.
    Mr. Poe. We know who some of them are?
    Mr. Weinberg. Right. Part of--part of the challenge is that 
the donors are often harder to track down than the operators 
themselves, right.
    If you look at it almost as a pyramid or something----
    Mr. Poe. I understand.
    Mr. Weinberg. Right. But if you take out the people in the 
middle----
    Mr. Poe. Like in a drug trafficking we get the guy who is 
selling drugs on the corner. We don't get the guy who is 
bringing it into the country or making the money.
    Mr. Weinberg. Exactly. The more we can take out the 
operatives in the middle. The people at the bottom of the 
period are more prone to sting operations and things like that.
    Mr. Poe. And Mr. Cassara, going back to your comments, 
United States has a financial investigation of money going from 
banks to banks, trying to track it to see if it is legitimate 
or not.
    But your testimony--the terrorists don't operate that way. 
Is that--is that a fair statement? They operate through trade 
and how much illicit money have they been making with the money 
laundering through trade that you discussed?
    Mr. Cassara. First of all, I would like to explain that, as 
we have talked about here today, terrorists are adversaries. 
They diversify just like any criminal organization does, just 
like--just like a good investor does, if you will.
    You don't put all your eggs in one basket. They diversify. 
So they use a wide variety of funding methods and laundering 
methods.
    Yes, they use banks. They do. But I think there has been an 
overemphasis on us targeting Western-style financial 
institutions.
    In effect, we are still fighting the war on drugs where 
large amounts of dirty money sloshed around through Western 
financial institutions. In fact, our anti-money laundering 
counter measures were put in place, you know, a generation ago 
when we were fighting the war on drugs. We have to be a little 
bit more nimble right now. Yes, I believe trade is a huge 
issue. The Financial Action Task Force calls it one of the 
three largest money laundering methodologies in the world.
    Mr. Poe. How much money are we talking about?
    Mr. Cassara. You are talking--the magnitude of money 
laundering in general, according to the International Monetary 
Fund, is about 3 to 5 percent of the world GDP or, roughly 
speaking in rough numbers, say, $5 trillion a year, okay--
roughly, the size of the U.S. budget.
    Mr. Poe. Give or take a trillion or two?
    Mr. Cassara. Give or take a trillion or two. You are 
talking real money here. They further think that is about 
equally divided between--talking suspicious--SUAs, suspicious 
unlawful activities, predicate offenses to charge money 
laundering, the criminal side--fraud, antiquities smuggling, 
human trafficking, narcotics, et cetera, and tax evasion.
    So it is about equally divided. Say, it is $4 trillion a 
year--about $2 trillion tax evasion and about $2 trillion 
traditional criminal predicate offenses. How much of that 
involves trade-based money laundering, my personal opinion is, 
and I detail that in this book, is--that is the largest money 
laundering methodology in the world.
    But we don't know because it has never been systematically 
examined. We haven't done it in the United States. Our 
Department of Treasury has never taken a look at it.
    I mean, the Financial Action Task Force did a money 
laundering methodology back about 2006 and, you know, they kind 
of threw up their hands.
    But this--it is not a solvable problem but it is something 
that we can do a great deal more to combat because the data 
exists in many hidden money laundering systems methodologies 
out there today. Say, for example, bulk cash smuggling--it is 
very, very difficult to follow that trail.
    But this type of thing has data and with modern analytics 
today we can do a much better job.
    Mr. Poe. All right. I want to thank all four of you for 
being here. Oh, you want to ask some more questions?
    Mr. Sherman. Yes.
    Mr. Poe. Mr. Sherman.
    Mr. Sherman. I am inspired by this work. I just want to 
bring to the attention of the subcommittee it is not just Qatar 
that takes a blind eye. It is also the U.S. Government.
    I brought to the attention of both the attorney general and 
the IRS the fact that there is a group based in Britain called 
Viva Palestinia that gives money to Hamas.
    Now, you got to understand that in liberal circles it is 
kind of--very liberal leftist circles--it is kind of acceptable 
to give money to Hamas.
    It is not al-Qaeda, not ISIS but Hamas, okay. And so 
brought to their attention the Viva--and then the Web site of 
the Interreligious Foundations for Community Organization that 
said we will help you get a tax deduction for giving money to 
Viva Palestinia so that they can give the money to Hamas.
    Brought this to their attention. Not only was there no 
criminal action taken but after 5 years there is just a review 
of the Interreligious Foundations and if there is anybody in 
this room who wants to give a--get a tax deduction and give 
money that they can be certain will go to Hamas the Web site is 
available to you right now.
    So I know we are the international affairs committee and we 
criticize a lot of foreign governments. Our own is in this, and 
I will say this.
    The IRS has published the fact that they are doing a study 
on this and they may eventually turn to the Interreligious 
Foundation for Community Organization.
    In spite of the fact that it has the word interreligious in 
it and deny their 501(c)(3) status, maybe by then we will see 
peace in the Middle East and Hamas won't be a problem.
    Second, on cultural awareness I know Ms. Foley brought that 
up. I have been on--the double entendre would be I have been on 
a jihad to get the State Department to hire just a few people 
who are hired not because they can pass the Foreign Service 
exam but because they are real experts in the theology and 
jurisprudence of Islam because you do have to understand not 
just your enemy but the group that we are trying to win over, 
which is the 1.2, 1.3 billion Muslims who ISIS would like to 
win over to their side.
    And they are pretty rigid over there. You know, if you go 
to Princeton they will hire you but if your knowledge--if you 
reach one of the highest levels of knowledge in the theology 
and jurisprudence of Islam they won't and so their arguments 
are basically to tell people ISIS is bad because they kill men, 
women and children Yazidis without being in a position to argue 
as to whether--to deal with the argument from ISIS that--well, 
that is a good thing. Look at their twisted interpretation of 
Islamic jurisprudence and theology.
    So just when we--while we criticize other governments we 
have got a government that will still to this day give you a 
tax deduction for giving money that you know goes to Hamas and 
we do have some people in the State Department that know some 
things about Islam, whatever you can learn kind of from the 
outside in a couple of graduate seminars, and we have religious 
Muslims but they may be working on trade issues.
    There is no department there that says here is how we can 
frame our arguments to Islamic governments based on--based on a 
real knowledge of Islam.
    With that, I think I have gone over time. I yield back. I 
haven't gone--I am yielding back a minute early. Put that on 
the record. Thank you.
    Mr. Poe. I will put it down because that is a record.
    But I do want to thank the Members of Congress. I want to 
thank you all for being here. I can't emphasize enough how 
valuable the information that you have given us is.
    We--Ranking Member Keating and I were talking during the 
break that we could have a hearing on each one of the issues 
that the four of you talked about because it is important 
information and we appreciate the fact that you have been here 
and have given us this information.
    Once again, Ms. Foley, thank you so much for being here. I 
agree with the comment that was made--your son probably got his 
spunk from you, which is--that is a compliment, by the way.
    So I thank all of you all and if you have any other 
information that you would like to share with the committee 
feel free to do that. Give it to me and I will share it with 
the other members of the committee.
    The committee now is adjourned.
    [Whereupon, at 4:10 p.m., the subcommittee was adjourned.]

                                     
                                   

                            A P P E N D I X

                              ----------                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
